b. Honoring the Card. Neither we nor merchants
authorized to honor the Card will be responsible for
the failure or refusal to honor the Card or any other
credit instrument or device we supply to you. If a
merchant agrees to give you a refund or adjustment,
you agree to accept a credit to your Account in lieu of
a cash refund.
c. Currency Conversion/Foreign Transaction Fee.
Purchases and cash advances made in foreign
countries will be billed to you in U.S. dollars. The
currency conversion rate for international transactions
as established by VISA International, Inc. is a rate
selected by VISA from the range of rates available in
wholesale currency markets for the applicable central
processing date, which rate may vary from the rate
VISA itself receives, or the government-mandated
rateineffectfortheapplicablecentralprocessingdate.In
addition, you will be charged a Foreign Transaction
Fee of 1% of the transaction amount for any card
transaction made in a foreign country.
d. Notices and Payments. All notices will be sent to your
address as shown on your credit union account. You
agree to advise us promptly if you change your mailing
address. All payments should be mailed to us at the
remittance address shown on your monthly statements.
Payments received at that address will be credited to
your Account as of the date received.
e. Personal Identification Number. We will issue you
a Personal Identification Number (“PIN”) for use with
your Card at automatic teller machines (“ATMs”).
These numbers are issued to you for your security
purposes. These numbers are confidential and
should not be disclosed to third parties. You are
responsible for safekeeping your PIN. You agree
not to disclose or otherwise make available your PIN
to anyone not authorized to sign on your Account. To
keep your Account secure, please do not write your
PIN on your Card or keep it in the same place as your
Card.
13. LOAN PROTECTION. Loan Protection coverage
is not required for any extension of credit under this
Agreement. However, you may purchase any loan
protection available through us and have the premiums
added to your outstanding balance. If you elect to do
so, you will be given the necessary disclosures and
documents separately.
14. DEFAULT. You will be in default under this Agreement
if any of the following occur: (a) Any minimum monthly
payment is not made when due; (b) You become
insolvent, bankrupt, or you die; (c) You violate any part
of this Agreement, or any other agreement with us; or

(d) if we reasonably deem ourselves insecure on your
credit line. We will notify you in writing of any such action
as soon as practical if it occurs. Upon default, we may
declare the entire unpaid balance immediately due and
payable, and you agree to pay that amount plus any
attorney’s fees and costs including collection agency
costs incurred by us. We can delay enforcing any right
under this Agreement without losing that right or any
other right. A negative credit report reflecting on your
credit record may be submitted to a credit-reporting
agency if you fail to fulfill the terms of this Agreement.
15. CREDIT INFORMATION/FINANCIAL STATEMENTS.
You authorize us to release information to others
(e.g., credit bureaus, merchants, and other financial
institutions) regarding the status and history of your
credit line. You agree to provide us, at any time we
deem necessary, with a current financial statement
and updated credit information upon request. We
may investigate your credit directly or through a credit
reporting agency.
16. LOSS OR THEFT OF VISA CREDIT CARD OR
CONVENIENCE CHECKS. You agree to notify us
immediately of the loss, or the theft, or the use without
your permission, of any Card or other credit instrument
or device which we supply to you. You may be liable for
the unauthorized use which occurs after you notify us at:
Telephone: (800) 449-7728 or by writing us at P.O. Box
31112, Tampa, FL 33631-3112 orally or in writing of loss,
theft, or possible unauthorized use. If you notify us of your
lost or stolen Credit Card after discovery, you may not be
liable for any losses related to credit transactions. This
zero liability will apply provided you were not grossly
negligent or fraudulent in handling your Card; otherwise
your liability for unauthorized VISA Credit Card
transactions shall not exceed $50.
17.YOUR CREDIT CARD BILLING RIGHTS. Keep this
document for future use. This notice tells you about your
rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement.
If you think there is an error on your statement, write
to us at: OneAZ Credit Union, P.O. Box 31112, Tampa,
FL 33631-3112. In your letter, give us the following
information:
• Account information: Your name and account
		number.
• Dollar amount: The dollar amount of the
		suspected error.
• Description of problem: If you think there is an

		 error on your bill, describe what you believe is
		 wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
		statement.
• At least 3 business days before an automated
		 payment is scheduled, if you want to stop payment
		 on the amount you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you
if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question,
		 or report you as delinquent on that amount.
• The charge in question may remain on your
		 statement, and we may continue to charge you
		 interest on that amount.
• While you do not have to pay the amount in
		 question, you are responsible for the remainder
		 of your balance.
• We can apply any unpaid amount against your
		credit limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay
		 the amount in question or any interest or other
		 fees related to that amount.
• If we do not believe there was a mistake: You
		 will have to pay the amount in question, along
		 with applicable interest and fees. We will send
		 you a statement of the amount you owe and
		 the date payment is due. We may then report you
		 as delinquent if you do not pay the amount we
		 think you owe. If you receive our explanation but
		 still believe your bill is wrong, you must write to us
		 within 10 days telling us that you still refuse to pay.
		 If you do so, we cannot report you as delinquent
		 without also reporting that you are questioning

your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us. If we do not follow all of the rules above,
you do not have to pay the first $50 of the amount you
question even if your bill is correct.

agreement and contains the terms applicable to the
credit transaction.

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases. If you are dissatisfied with the goods
or services that you have purchased with your credit
card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase. To
use this right, all of the following must be true:

Visa® Platinum
Credit Card
Agreement and Disclosures

1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at
the above address. While we investigate, the same
rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe
an amount and you do not pay, we may report you as
delinquent.
18. AMENDMENTS. We reserve the right to amend the
terms and conditions of this Agreement as permitted by
and subject to any limitations or notice requirements of
applicable law.
19. GOVERNING LAW. This Agreement will not take
effect until it is approved by us. This Agreement shall be
governed by the laws of the State of Arizona.
20. ENTIRE AGREEMENT. You understand and agree
to the terms and conditions in this VISA Credit Card
Agreement. You acknowledge that you have received
a copy of the Agreement. This Agreement is a final
expression of the agreement between you and the
Credit Union. This Agreement may not be contradicted
by evidence of any oral agreement or alleged oral

2355 W. Pinnacle Peak Rd.
Phoenix, AZ 85027
REV. 4/20/16

M-118435

ONEAZ CREDIT UNION
VISA® PLATINUM CREDIT CARD
AGREEMENT AND DISCLOSURE

1. INTRODUCTION. This VISA Credit Card Agreement
(Agreement) and the Account Disclosures accompanying
this Agreement will govern your VISA Platinum Credit
Card and account issued by OneAZ Credit Union. In
this Agreement the words “you,” “your,” “yours,”
“applicant,” and “Borrowers” mean any person who
signs the application for this Account, any joint obligor,
guarantor, authorized user, or the person whose name
is embossed on the Card. The words “we,” “us,” “our,”
and “Lender” mean OneAZ Credit Union. The word
“Card” means any one or more credit cards issued
under the Credit Union’s VISA Card program. If you sign
or cosign an application for this Account or sign or use
any Card or PIN, or allow others to use the Card or PIN,
you and they will have accepted this Agreement just
as if you and they signed it, and you and they, jointly
and severally, will be bound by the following terms and
conditions which will govern this Account.
2. ACCOUNT ACCESS.
a. Purchases, Cash Advances & Balance Transfers.
You must sign the Card to use it. Once you have
signed the Card, you can use it to buy or lease goods
or services, wherever the Card is honored, up to
the full amount of your credit line. You may use your
Account to get cash advances from us. You may also
use your Card to get a cash advance from participating
financial institutions or automated teller machine
(ATM). You may use your Card to purchase goods
and services any place your VISA Card is honored
by participating merchants. In addition, you may
access your account through balance transfers of
credit card balances from other financial institutions.
No purchase may exceed the available credit line
established for your account. The Credit Union
reserves the right to refuse any transaction that would
draw upon insufficient funds.
b. VISA Convenience Checks. If we approve, you may
obtain advances under your Account by writing
preprinted VISA convenience loan checks that we
supply to you. Your use of loan checks will be shown
as cash advances on your monthly statement. We
may not honor your loan check if: your check is postdated; payment of the check would exceed your
Credit Limit; a check is signed by person without
authorized access; the amount of the check is less
than the minimum required amount; your Account
has been terminated or suspended, or any drafts have

been reported lost or stolen. You may stop
payment on a loan check if you provide us with the
exact information describing the check. If you give
us incorrect information, we will not be responsible
for failing to stop payment. You understand there may
be a charge for each stop payment order requested.
Our liability for a wrongful dishonor is limited to your
actual charges; however, a dishonor for the reasons
stated above is not a wrongful dishonor. Only the
person whose name is printed on a convenience
check may sign it. All convenience checks must be
written in U.S. dollars. We will not certify a
convenience check. You may write these checks for
any amount providing your total outstanding balance
does not exceed your available credit limit and your
credit card remains in good standing. We are entitled
to return it unpaid if there is not enough available
credit on your account to pay it, if you are in default
under this Agreement, if your card or convenience
checks have been reported lost or stolen, or if the
convenience check is post-dated. A VISA
convenience check may not be used to make a
payment on your VISA credit card account. The
Credit Union shall have no liability for any convenience
check returned in excess of your credit line.
3. YOU PROMISE TO PAY. You promise to pay us all
such amounts, plus any Interest Charges, which arise
from use of the Card or Account by you or any other
person, and to be jointly and severally liable with such a
person, unless such other person does not have actual,
implied, or apparent authority for such use, and you
received no benefit from the use. You promise to pay
us either by direct payment or by automatic transfers.
4. CREDIT LINE. This Agreement will constitute a
revolving line of credit for an amount which will be the
credit line under your Account. You may access your
credit line through card purchases, cash advances
at participating merchants, loan checks and balance
transfers. We will advise you of the amount of your
credit line on your statement. That amount will be the
maximum amount you may have outstanding at any one
time. You agree not to attempt to obtain more credit
than the amount of your credit line. We retain the right
to increase or decrease your credit line at any time for
any reason. Any increase or reduction on the limit of your
credit line will be shown on your monthly statement or
by separate notice together with any changes in the
applicable minimum monthly payments. Your eligibility
for this credit line is determined by our loan policy
and may be terminated at our sole discretion, without
demand or notice. You may close your credit line at

any time by notifying us in writing. If you terminate this
Agreement or if we terminate or suspend your credit
privileges, the provisions of this Agreement and your
liability hereunder shall otherwise remain in full force
and effect until you have paid us all sums due us under
this Agreement.
5. MINIMUM MONTHLY PAYMENT. You agree that you
will pay each month not less than the minimum monthly
payment on or before the scheduled monthly due date.
The minimum monthly payment will be 2.0% of your is
greater. If your outstanding balance is $25.00 or less, you
agree to pay the balance in full. You may pay in full for all
your purchases and cash advances each month, or you
may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, or money
orders marked “payment in full” without prejudice
to our rights under this Agreement, which are hereby
explicitly reserved. A credit posting from a merchant or
reversal of fees do not constitute a minimum payment.
The minimum payment may be allocated at the Credit
Union’s discretion to pay off lower rate balances, such
as promotional offers, before higher rate balances, such
as cash advances or purchases. Payments in excess of
the minimum payment will be allocated first to higher
rate balances, as applicable. From time to time, we may
allow you to skip your minimum monthly payment due.
If you choose to skip that payment, Interest Charges will
continue to accrue in accordance with this Agreement.
Payments received at: 2355 W. Pinnacle Peak Rd.,
Phoenix, AZ 85027 at or before 5:00 PM Mountain
Standard Time on any business day will be credited to
your Account as of that date; payments received by mail
at that address after 5:00 PM Mountain Standard Time,
on a weekend or federal holiday will be posted to your
Account as of the next business day. Payment crediting
to your Account may be delayed up to five days if your
payment is received by mail at any other address or not
accompanied by the remittance portion of your Account
statement.
6. SECURITY INTEREST. You grant the Credit Union a
security interest under the Arizona Uniform Commercial
Code in any goods purchased through your VISA Credit
Card Account. You agree that all collateral you have given
the Credit Union to secure other open-end consumer
loan obligations (except dwelling secured loans), in
the past and in the future, will secure your obligations
under this Agreement. In addition, by signing the Card
Application, you have given us a security interest in all
your shares and deposits, present and future, and all
accounts (except Individual Retirement Accounts) with
the Credit Union you agree, upon default, the Credit

Union may apply all that is secured to pay any amounts
due under this Agreement, without further notice to you.
7. MONTHLY STATEMENTS. Each month we will send
you a statement showing purchases, cash advances,
payments, and credits made to your Account during
the billing cycle, as well as your “New Balance,” any
Interest Charge and any late charge or other charges.
Your statement also will identify the Minimum monthly
payment you must make for that billing period and
the date it is due. You agree to retain for statement
verification copies of transaction slips resulting from
each purchase, each advance, and other transaction on
your Account. Unless you notify us of a billing error as
described below, you accept your monthly statement as
an accurate statement of your Account with us.
8. CIRCUMSTANCES UNDER WHICH AN INTEREST
CHARGE WILL BE IMPOSED. The total outstanding
balance of purchases and cash advances in the Account
on the closing date of a billing cycle, including any
Interest Charge will be shown on the Periodic Statement
for that billing cycle as the “New Balance.”
a. Cash Advances (Interest Charge). An interest
Charge will be imposed on cash advances and
balance transfers from the date each advance is
made to the date paid. The Credit Union charges
a cash advance fee (Interest Charge) of 3% of the
cash advance transaction (minimum $10.00) from
the date of the transaction until the amount is paid.
There is no grace period to avoid a cash advance fee
(Interest Charge). There is no cash advance fee on
balance transfer advances or convenience checks.
There is a minimum Interest Charge of $1.00 on
unpaid balances.
b. Purchases. An Interest Charge will be imposed on
the portion of purchases included in the new balance
that remains unpaid 25 days after the closing date.
This “grace period” allows you to avoid an Interest
Charge on purchases for a billing cycle. However, to
the extent you do not pay your purchase transactions
within the grace period, your Interest Charge will
accrue from the date purchases are posted to your
account. There is a minimum Interest Charge of
$1.00 on unpaid balances.
9. METHOD USED TO DETERMINE THE BALANCE
ON WHICH THE INTEREST CHARGE MAY BE
COMPUTED AND AMOUNT OF INTEREST CHARGE.
The Credit Union figures the Periodic Interest Charge
on your Account by applying the Periodic Rate to the
“Average Daily Balance” of new and previous unpaid
transactions for your Account. To get the “Average

Daily Balance” we take the beginning purchase and
cash advance balances of your Account each day, add
any new purchases, cash advances, balance transfer
amounts or debit adjustments or charges and subtract
any payments or credits, unpaid Interest Charges and
unpaid late charges. This gives us the daily balance.
Then we add up all the daily balances for the billing
cycle and divide by the number of days in the billing
cycle. This gives us the Average Daily Balance for
purchases, cash advances and balance transfers.
10. PERIODIC RATE AND CORRESPONDING ANNUAL
PERCENTAGE RATE.
a. Variable Rate. During an introductory period, we
offer a fixed Annual Percentage Rate for purchases, cash
advances and balance transfers. The introductory
period is six months for purchases and cash
advances and nine months for balance transfers.
After the introductory period, your Annual Percentage
Rate will be variable based on the following terms.
The Interest Charge imposed during the billing cycle
will be determined by multiplying the Average Daily
Balance by the Daily Periodic Rate times the number
of days in the billing cycle. The Periodic Rate and
Annual Percentage Rate are variable based on a
margin and an index, which is the highest Prime
Rate published in the Western Edition of the Money
Rates Section of the Wall Street Journal. We add a
margin to the index to obtain the Annual Percentage
Rate. The margin we add may range from 6.74%
to 14.75% based upon your credit qualifications.
The index is determined the 1st day of the billing
cycle immediately following the expiration of the
Introductory Rate period and subsequently, on the
15th day of the month immediately proceeding the
1st day of each billing cycle, rounded to the nearest
.25 percentage point. The index plus/minus margin
equals the Annual Percentage Rate. The Annual
Percentage Rate is divided by 365 to determine
the Daily Periodic Rate. Changes in the Annual
Percentage Rate may affect the amount of the
payment and the number of payments you will make.
The Annual Percentage Rate will never exceed
18.00%. The Annual Percentage Rate and Periodic
Rate applicable to your account will be based upon
your credit qualification and margin assigned to
you and will be disclosed on a separate disclosure
accompanying your Card or this Agreement and
shown on each monthly statement. The “Total
Interest Charge” shown on your monthly statement
consists of the periodic Interest Charge on purchases,
the periodic Interest Charge on cash advances and
Cash Advance (Interest Charge) fees.

b. Default Rate. The Daily Periodic Rate and Annual
Percentage Rate may increase if your minimum
payment has not been received within 60 days after
the due date for such payment, in which case the
Annual Percentage Rate for your entire balance
will immediately increase to 18.00%. Following the
default rate increase, if you make your payments
on time for six (6) consecutive months, the Annual
Percentage Rate based on a default will terminate
and the prevailing variable Annual Percentage Rate
will apply.
11. CONDITIONS UNDER WHICH OTHER CHARGES
MAY BE IMPOSED. You agree to pay the following fees
and charges on your Account:
a. Late Fee. If we do not receive your minimum payment
by the payment due date shown on your statement,
you agree to pay a Late Fee of $25.00.
b. Returned Item Charge. If any check or draft we
receive from you as payment for any amount you
owe to us is returned to us unpaid, you agree to pay
a returned item fee of $25.00 or the amount of the
returned item, whichever is less.
c. ATM Fees. If you use an ATM to obtain a cash
advance and the ATM is not operated by us, you may
be charged an ATM surcharge by the ATM operator
or an ATM network utilized for such a transaction.
The ATM surcharge may be charged to your account
if you complete the transaction.
d. Attorney’s Fees and Costs. If you default on any
part of this Agreement, you agree to pay us all
costs to collect your Account, including court costs
and reasonable attorney fees and collection agency
costs whether or not there is a lawsuit, and fees on
any appeal and fees for bankruptcy proceedings,
appeals, and any post judgment collection services,
if applicable.
12. CONDITIONS OF CARD USE. The use of your Card
and Account are subject to the following conditions:
a. Ownership of Cards. Any Card or other credit
instrument or device which we supply to you is
our property and must be returned to us, or to any
person whom we authorize to act as our agent, or
to any person who is authorized to honor the Card,
immediately according to instructions. The Card may
be repossessed at any time at our sole discretion
without demand or notice. You cannot transfer your
Card or Account to another person. You may not
use the Card for any illegal or unlawful transactions
and we may decline to authorize any transaction
that we believe poses an undue risk of illegality or
unlawfulness.

